WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-180 |

Michael Patrick Lathigee British Columbia Securities Commission
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
® [am filing this waiver on behalf of all respondents.

oO T only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

 

Please check the appropriate box:
© Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

O° Tam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,

Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature: " fh * on |

Date: 8/31/21

(Type or print) Name John M. Naylor

© mr. O Ms. © Mrs. O Miss
Firm Naylor & Braster
Address 1050 Indigo Drive, Suite 200
City & State Las Vegas, Nevada Zip 89145
Phone 702-420-7000 Email jnaylor@nblawnv.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

John W. Muije, Esq.
Micah S. Echols, Esq.
